No. 20-1244
IN THE

Supreme Court of the United States
BARBARA TULLY, ET AL.,
Petitioners,
v.
PAUL OKESON, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Jessica Ring Amunson, hereby certify that I am a member of the Bar of this
Court, and that I have this 8th day of April 2021, caused a paper copy of the Brief of
Twenty-Sixth Amendment Scholars as Amici Curiae in Support of Petitioners to be
delivered to the Court and an electronic version of the document to be delivered to:
Andrew John Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3220
apincus@mayerbrown.com
Counsel for Barbara Tully, et al.

Thomas M. Fisher
Jefferson S. Garn
Office of the Indiana Attorney General
Indiana Government Center South
302 W. Washington Street, 5th Floor
Indianapolis, IN 46204
(317) 232-6201
Tom.Fisher@atg.in.gov
Jefferson.Garn@atg.in.gov
Counsel for Paul Okeson, et al.

/s/ Jessica Ring Amunson
Jessica Ring Amunson

